IN THE
SUPREME COURT OF THE UNITED STATES
No. 19-238
In Re Hotze Health Wellness Center International One, LLC., et al.,
Petitioners,
v.
Environmental Research Center,
Respondent.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.l(h), I certify that the document
contains 622 words, excluding the parts of the document that are exempted by
Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 20, 2019.

/s/Daniel Cooper
Daniel Cooper
Cooper & Lewand-Martin, Inc.
1004B O'Reilly Avenue
San Francisco, CA 94129
Email: daniel@cooperlewandmartin.com
T: (415) 360-2962

